UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




          Audit of the NLRB
 Fiscal Year 2013 Financial Statements

                  Report No. OIG-F-18-14-01




                                              January 29, 2014
                                     TABLE OF CONTENTS

Executive Summary ………………………………………………………………… 1

Independent Auditors’ Report ……………………………………………………..3

Independent Auditors’ Report on Internal Control over Financial
Reporting and on Compliance and Other Matters Based on an Audit of
Financial Statements Performed in Accordance with Government
Auditing Standards …………………………………………………………………. 6

Agency Response to the Independent Auditors’ Report ........................... 8

Management Letter ............................................................................... 9

Agency Response to the Draft Management Letter................................ 12

APPENDICES

        Appendix A – Principal Financial Statements

        Appendix B – Notes to Principal Statements
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

The Accountability of Tax Dollars Act of 2002 requires that the National Labor
Relations Board (NLRB or Agency) prepare and submit to the Congress and the
Director of the Office of Management and Budget (OMB) audited financial
statements.

The NLRB Office of Inspector General (OIG) contracted with Carmichael,
Brasher, Tuvell & Company (CBTC) to perform the audit. The objectives of the
audit were to issue an opinion on the fair presentation of the principal financial
statements, obtain an understanding of the Agency's internal controls, and test
compliance with laws and regulations that could have a direct and material
effect on the financial statements. The audit was conducted by CBTC in
accordance with Government Auditing Standards issued by the Comptroller
General of the United States and OMB Bulletin No. 14-02, Audit Requirements
for Federal Financial Statements.

This document is the NLRB OIG's comprehensive report related to auditing the
Agency's financial statements and includes CBTC’s independent auditors’
report, independent auditors’ report on internal control over financial reporting
and on compliance and other matters based on an audit of financial statements
performed in accordance with Government Auditing Standards, and
management letter; NLRB's financial statements and related notes; and the
Agency's responses to the independent auditors’ report and management letter.

CBTC is responsible for the independent auditors’ report and the conclusions
expressed in the report. We reviewed CBTC's report and related documentation
and inquired of its representatives. Our review, as differentiated from an audit
in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express, opinions on the
NLRB's financial statements or internal control or conclusions on compliance
with laws and regulations. Our review disclosed no instances in which CBTC
did not comply, in all material respects, with generally accepted government
auditing standards.

On November 26, 2013, we transmitted CBTC’s independent auditors’ report,
which was included in the Agency's FY 2013 Performance and Accountability
Report. The audit results were:

   The financial statements present fairly, in all material respects, the financial
    condition and activity of the NLRB as of and for the years ending September
    30, 2012 and 2013.

   The tests on internal controls identified no material weaknesses in controls
    over financial reporting. CBTC’s opinion did not provide any assurances on
    the effectiveness of internal control over financial reporting. Providing
    assurances on internal control or on the effectiveness of NLRB’s internal
    control over financial reporting was not an objective of the audit.

   The tests on compliance with laws and regulations identified no instances of
    noncompliance with laws and regulations that would be reportable under
    U.S. generally accepted government auditing standards or OMB audit
    guidance. Providing an opinion on compliance with laws and regulations,
    however, was not an objective of the audit and, accordingly, such an opinion
    was not expressed.

CBTC’s independent auditors’ report did not include any recommendations for
corrective action. CBTC’s management letter contains no findings or
recommendations. The management letter also provides information on the
status of prior year recommendations.

The Chairman and General Counsel provided comments to the independent
auditors’ report and the management letter. Those comments are presented in
their entirety in this report.




                                        2
C E R T I F I E D    P U B L I C     A C C O U N T A N T S



                           INDEPENDENT AUDITORS’ REPORT

To David P. Berry, Inspector General
National Labor Relations Board

The Accountability of Tax Dollars Act of 2002 made the National Labor Relations Board
(NLRB) subject to the annual financial statement reporting requirements of the Chief Financial
Officers Act of 1990, which requires agencies to report annually to Congress on their financial
status and any other information needed to fairly present the agencies’ financial position and
results of operations.

The objectives of the audit are to express an opinion on the fair presentation of NLRB’s principal
financial statements, obtain an understanding of the Agency’s internal control, and test
compliance with laws and regulations that could have a direct and material effect on the financial
statements.

Report on the Financial Statements

We have audited the accompanying financial statements of NLRB, which comprise the balance
sheets as of September 30, 2013 and 2012, and the related statements of net cost, changes in net
position, and budgetary resources for the years then ended, and related notes to the financial
statements.

Management’s Responsibility for the Financial Statements

NLRB’s management is responsible for the preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the United States of
America; this includes the design, implementation, and maintenance of internal control relevant
to the preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error. NLRB’s management is also responsible for
preparing the Management’s Discussion and Analysis (MD&A); and complying with laws and
regulations.

Auditor’s Responsibility

Our responsibility is to express an opinion on these financial statements of NLRB based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal
Financial Statements. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement.

                                                3
An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, we considered
internal control relevant to the NLRB’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of NLRB’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting principles used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of NLRB’s assets, liabilities, and net position of NLRB, as of September
30, 2013 and 2012; and the net cost, changes in net position, and budgetary resources for the
years then ended in accordance with accounting principles generally accepted in the United
States of America.

Other Accompanying Information

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NLRB taken as a whole. The accompanying financial information presented for the purposes of
additional analysis and is not required part of the financial statements.

The other accompanying information included in the MD&A section of the Performance and
Accountability Report is required by the Federal Accounting Standards Advisory Board and
OMB Circular A-136, Financial Reporting Requirements. Such other accompanying information
is the responsibility of NLRB’s management. We have applied certain limited procedures to the
other accompanying information in accordance with auditing standards generally accepted in the
United States of America, which consisted of inquiries of management about the methods of
preparing information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we obtained
during our audit of the basic financial statements. We do not express an opinion or provide any
assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.




                                                 4
Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated
November 26, 2013 on our consideration of NLRB’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws, regulations, contracts, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion
on internal control over financial reporting or on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards in considering NLRB’s
internal control over financial reporting and compliance.

This communication is intended solely for the information and use of those charged with
governance and management of NLRB, others within the organization, OMB, and the Congress
of the United States, and is not intended to be and should not be used by anyone other than these
specified parties.

CARMICHAEL, BRASHER, TUVELL & COMPANY, P.C.




Atlanta, Georgia
November 26, 2013




                                                 5
C E R T I F I E D     P U B L I C    A C C O U N T A N T S



    INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED
 ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE
              WITH GOVERNMENT AUDITING STANDARDS


To David P. Berry, Inspector General
National Labor Relations Board

We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States and Office of
Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements, the financial statements of NLRB, which comprise the balance sheets as of
September 30, 2013 and 2012, and the related statements of net cost, changes in net position, and
budgetary resources for the years then ended, and related notes to the financial statements.

Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered NLRB’s internal
control over financial reporting (internal control) to determine the audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinions on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of NLRB’s
internal control. We limited our internal control testing to those controls necessary to achieve
the objectives described in OMB Bulletin No. 14-02. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. Accordingly, we do
not express an opinion on the effectiveness of NLRB’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the organization’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or a combination of deficiencies, in internal control that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance.




                                                6
Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control that might be material weaknesses. Given these limitations, during our audit we
did not identify any deficiencies in internal control that we consider to be material weaknesses.
However, material weaknesses may exist that have not been identified.

We also identified other matters in internal control that came to our attention during our audit
that we communicated in writing to the management of NLRB and those charged with
governance.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether NLRB’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 14-02. We limited our tests of compliance to these provisions and we did not
test compliance with all laws and regulations applicable to NLRB. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly,
we do not express such an opinion. The results of our test disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB audit guidance.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion
on the effectiveness of NLRB’S internal control or on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering
NLRB’s internal control over financial reporting and compliance.               Accordingly, this
communication is not suitable for any other purpose.

CARMICHAEL, BRASHER, TUVELL & COMPANY, P.C.




Atlanta, Georgia
November 26, 2013




                                                 7
             UNITED STATES GOVERNMENT

A            NATIONAL LABOR RELATIONS BOARD


~
             WASHINGTON, DC




MEMORANDUM


TO:        David P. Berry
           Inspector General


FROM:      Mark Gaston Pearce, Chairman
           Richard F. Griffin, Jr., General Counsel


DATE:      December 3, 2013


SUBJECT:   Response to Audit ofthe National Labor Relations Board Fiscal Year 2013
           Financial Statements (OIG-F-18-14-01)

           We have reviewed the Audit Report submitted by Carmichael, Brasher, Tuvell &
           Company and are pleased that the FY 2013 audit of the NLRB' s fmancial
           statements has resulted in a unqualified opinion with no findings,
           recommendations, or corrective actions.




                 Mark Gaston Pearce
                    Chairman




                                            8
MANAGEMENT LETTER

To David P. Berry, Inspector General
National Labor Relations Board

We audited the financial statements (balance sheet, and the related statements of net cost,
changes in net position, and statement of budgetary resources, hereinafter referred to as
“financial statements”) of the National Labor Relations Board (NLRB) as of and for the years
ended September 30, 2013 and 2012, on which we issued an unmodified opinion dated
November 26, 2013.

In planning and performing our audit, we considered NLRB’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of its internal controls,
determined whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in the Office of Management and
Budget's (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements, but
not for the purpose of expressing an opinion on the effectiveness of NLRB’s internal control.
We have not considered the internal control structure since the date of our report.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.

During our audit, we noted no findings involving the internal control structure and other
operational matters that are presented in this letter for your consideration. We reviewed three (3)
open recommendations made in the prior years’ management letters (two from 2012, and one
from 2011) and determined the status of corrective actions for each. One (1) recommendation is
partially completed and two (2) recommendations were closed.

NLRB’s written responses to the prior years’ management letter comments have not been
subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on them.

The report is intended for the information and use of those charged with governance and
management of NLRB, the Office of Inspector General, others within the organization, OMB,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than
those specified parties.




                                                 9
                MANAGEMENT LETTER COMMENTS (continued)




CARMICHAEL BRASHER TUVELL & COMPANY




Atlanta, Georgia
November 26, 2013




                                 10
Prior Year Recommendations

Open Prior Year Management Letter Recommendations
Three (3) prior year management letter recommendations were open during FY 2013. As shown
in the table below, one (1) recommendation is partially completed and two (2) recommendations
were closed.

             Prior Year Recommendation                          Current Year Status
FY 2012 Management Letter
Information Technology – Active Directory Accounts     Partially complete
We recommend that NLRB’s OCIO coordinate with
appropriate personnel (i.e. Office of Human Resources,
Regional Offices, etc.) to ensure that the OCIO is
notified immediately of all terminations, transfers,
temporary accounts no longer required, or any NLRB
employee who is absent without leave.

In addition, we recommend the OCIO ensures
compliance with the Access Control Standards –
Password Management in regard to the disabling of
inactive accounts that have been dormant for a period of
45 days, with a schedule of regularly performed user
account maintenance to remove inactive user accounts.
We also recommend the OCIO maintain appropriate
documentation of its compliance with this policy.

Finance Branch – Review of Journal Vouchers        Closed
We recommend that Finance Branch personnel follow
the internal controls that are designed to provide
segregation of duties.

FY 2011 Management Letter
Telecommunications
We recommend that the NLRB:                           Closed
   1) Utilize a tracking calendar system for all
      contracts;
   2) Consider implementing procurement software;
   3) Manage contracts in order to assure timely
      issuance of preliminary notifications;
   4) Compare the status of Request to Purchase, Form
      12’s to the contract;
   5) Issue the contract modification prior to the
      expiration date of the original contract;
   6) Assure that option year evaluations are
      documented in the contract file; and
   7) Ratify the procurement action as deemed
      necessary by Special Counsel.


                                              11
                UNITED STATES GOVERNMENT
                NATIONAL LABOR RELATIONS BOARD
                WASHINGTON, DC




MEMORANDUM


TO:           David P. Berry
              Inspector General


FROM:         Mark Gaston Pearce, Chairman
              Richard F. Griffin, Jr., General Counsel


DATE:         December 11,2013


SUBJECT:      Comments on Draft Management Letter on Xudit of the National Labor Relations
              Board's Fiscal Year 2013 Financial Statements (OIG-F-18-14-01a)

              This is in response to your memorandum dated December 11, 2013, in which you
              requested us to review and comment, if necessary, on the draft Management
              Letter covering the audit ofthe Agency's Fiscal Year 2013 financial statements.

              We reviewed the draft Management Letter and are pleased that there were no
              findings or recommendations reported and have no comments on the remainder of
              the report.




      /
          ~2----
              Mark Gaston Pearce, Chairman


cc: Chief Financial Officer
    Chief Information Officer




                                               12
                                                                                               APPENDIX A


     PRINCIPAL FINANCIAL STATEMENTS
           AUDITOR’S REPORTS AND PRINCIPAL FINANCIAL STATEMENTS
                                             PRINCIPAL STATEMENTS


                                  National Labor Relations Board
                                           Balance Sheet
                                         As of September 30, 2013 and 2012
                                                    ( in dollars )
                                                                                  FY 2013              FY 2012
 Assets:
    Intragovernmental:
       Fund balance with Treasury (Note 2)                                   $ 23,321,588)        $ 26,829,675)
       Advances (Note 4)                                                             97,196)             186,019)
 Total Intragovernmental                                                         23,418,784)          27,015,694)


    Accounts and Interest Receivable, Net (Note 5)                                   60,893               76,961)
    General property, plant and equipment, net (Notes 6 and 10)                  13,685,712           13,527,547)
 Total Assets                                                                $ 37,165,389         $ 40,620,202)


 Liabilities:
    Intragovernmental:
       Accounts payable (Note 7)                                             $    1,085,760)      $    3,890,755)
       Employer contributions and payroll taxes                                     987,135              827,258)
       FECA liability (Notes 8 and 10)                                              719,585              765,165)
       Custodial Liability                                                          213,501              209,407)
 Total Intragovernmental                                                     $    3,005,981       $    5,692,585)


    Accounts payable:                                                             7,629,226            8,876,275)
    Estimated future FECA liability (Notes 8 and 10)                              1,008,521            1,630,611)
    Accrued payroll and beneﬁts                                                   3,650,218            3,153,276)
    Accrued annual leave (Notes 8 and 10)                                        13,644,627           14,163,509)
 Total Liabilities                                                           $ 28,938,573         $ 33,516,256)


 Net position:
    Unexpended appropriations                                                $    9,852,964       $ 10,058,724)
    Cumulative results of operations (Note 10)                                   (1,626,148)          (2,954,778)
 Total Net Position                                                               8,226,816            7,103,946)
 Total Liabilities and Net Position                                          $ 37,165,389         $ 40,620,202


The accompanying notes are an integral part of these ﬁnancial statements.
                                National Labor Relations Board
                                      Statement of Net Cost
                                For the Periods Ended September 30, 2013 and 2012
                                                    ( in dollars )
                                                                          FY 2013           FY 2012
 Program Costs:


 Resolve Representation Cases
 Net Cost                                                            $   44,443,321     $   48,024,590



 Resolve Unfair Labor Practices
 Net Cost                                                            $ 233,327,431      $ 244,755,968



 Other:
    Costs                                                            $         6,124    $      10,971
    Less: Earned Revenue                                                       6,124           10,971
 Net Cost                                                                           –               –



 Total:
    Costs                                                            $ 277,776,876      $ 292,791,529
    Less: Earned Revenue                                                       6,124           10,971
 Net Cost of Operations (Note 11)                                    $ 277,770,752      $ 292,780,558

The accompanying notes are an integral part of these ﬁnancial statements.
                                 National Labor Relations Board
                                Statement of Changes In Net Position
                                For the Periods Ended September 30, 2013 and 2012
                                                    ( in dollars )
                                                            Consolidated Total        Consolidated Total
                                                                         FY 2013                  FY 2012


 Cumulative Results of Operations:
    Beginning Balance                                             $     (2,954,778)        $     (4,249,240)


 Budgetary Financing Sources:
    Appropriations-used                                                263,043,308             277,129,011)
   Non-exchange revenue                                                   (213,501)                       -)
 Other Financing Sources (Non-Exchange):
    Imputed ﬁnancing costs (Note 13)                                    16,056,074              16,946,009)
    Custodial Liability                                           $        213,501                        -)
 Total Financing Sources                                          $ 279,099,382            $ 294,075,020


    Net Cost of Operations                                            (277,770,752)            (292,780,558)


 Net Change                                                       $      1,328,630         $     1,294,462)


 Cumulative Results of Operations (Note 10)                       $     (1,626,148)        $     (2,954,778)


 Unexpended Appropriations:
    Beginning Balance                                             $    10,058,724)         $     9,487,574)


 Budgetary Financing Sources:
    Appropriations-received                                            278,306,006             278,833,000)
    Appropriations-used                                               (263,043,308)            (277,129,011)
    Recissions & cancelled appropriations                              (15,468,458)              (1,132,839)
 Total Budgetary Financing Sources                                $       (205,760)        $       571,150)


 Total Unexpended Appropriations                                  $      9,852,964         $     10,058,724


 Net Position                                                     $      8,226,816         $      7,103,946

The accompanying notes are an integral part of these ﬁnancial statements.
                                       National Labor Relations Board
                                       Statement of Budgetary Resources
                                       For the Periods Ended September 30, 2013 and 2012
                                                           (in dollars)
                                                                                     FY 2013              FY 2012
Budgetary Resources:
   Unobligated balance brought forward, October 1                              $     5,779,205)     $     4,295,300)
   Recoveries of prior year unpaid obligations                                       1,162,637)           1,616,889)
   Other changes in unobligated balance (+ or -)                                       (911,385)            (605,845)
   Unobligated balance from prior year budget authority, net                          6,030,457           5,306,344)
   Appropriations (discretionary)                                                   263,748,933         278,306,006)
   Spending authority from offsetting collections
                                                                                           37,479            97,564)
   (discretionary)
Total Budgetary Resources                                                      $ 269,816,869        $ 283,709,914)

Status of Budgetary Resources:
   Obligations incurred                                                        $ 264,828,625)       $ 277,930,709)
   Unobligated balance, end of year (gross):                                                    )                   )
      Apportioned                                                                       725,834             801,263)
      Unapportioned                                                                   4,262,410           4,977,942)
   Total unobligated balance, end of year                                             4,988,244           5,779,205)
Total Budgetary Resources                                                      $ 269,816,869        $ 283,709,914)

Change in Obligated Balance:
   Unpaid obligations, brought forward, October 1 (gross)                      $    20,841,062)     $    22,105,868)
   Obligations incurred                                                             264,828,625         277,930,709)
   Outlays (gross)                                                                 (266,283,298)        (277,578,626)
   Recoveries of prior year unpaid obligations (-)                                   (1,162,637)          (1,616,889)
  Unpaid obligations, end of year (gross)                                            18,223,752           20,841,062
  Memorandum (non-add) entries
   Obligated balance, start of year (+ or -)                                         20,841,062           22,105,868
Obligated balance, end of year (net)                                           $     18,223,752     $    20,841,062)

Budget Authority and Outlays, Net:
   Budget authority, gross (discretionary)                                     $ 263,786,412        $ 278,403,570
   Actual offsetting collections (discretionary) (-)                                    (37,479)             (97,564)
Budget authority, net (discretionary)                                          $ 263,748,933        $ 278,306,006


   Outlays, gross (discretionary)                                                   266,283,298          277,578,626
   Actual offsetting collections (discretionary) (-)                                    (37,479)             (97,564)
   Outlays, net (discretionary)                                                     266,245,819          277,481,062
Agency outlays, net (discretionary)                                            $ 266,245,819        $ 277,481,062
   The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                            APPENDIX B


       NOTES TO PRINCIPAL STATEMENTS
Note 1. Summary of Signiﬁcant                             and the form and content requirements of the
                                                          Ofﬁce of Management and Budget (OMB) Circular
Accounting Policies                                       No. A-136, Financial Reporting Requirements,
                                                          revised as of October 21, 2013. GAAP for federal
A. Reporting Entity
                                                          entities are the standards prescribed by the Federal
The National Labor Relations Board (NLRB) is an           Accounting Standards Advisory Board (FASAB),
independent federal agency established in 1935            which is the ofﬁcial standard-setting body for the
to administer the National Labor Relations Act            federal government. While the statements have been
(NLRA). The NLRA is the principal labor relations         prepared from the books and records of the NLRB
law of the United States, and its provisions generally    in accordance with GAAP for federal entities and
apply to private sector enterprises engaged in, or to     the formats prescribed by OMB, the statements are
activities affecting, interstate commerce. The NLRB’s     in addition to the ﬁnancial reports used to monitor
jurisdiction includes the U.S. Postal Service (other      and control budgetary resources which are prepared
government entities, railroads, and airlines are not      from the same books and records. These ﬁnancial
within the NLRB’s jurisdiction). The NLRB seeks to        statements present proprietary and budgetary
serve the public interest by reducing interruptions       information.
in commerce caused by industrial strife. The NLRB
does this by providing orderly processes for protecting   The Balance Sheet presents Agency assets and
and implementing the respective rights of employees,      liabilities, and the difference between the two, which
employers, and unions in their relations with one         is the Agency’s net position. Agency assets include
another. The NLRB has two principal functions: (1)        both entity assets —those which are available for use
to determine and implement, through secret ballot         by the Agency—and non-entity assets —those which
elections, free democratic choice by employees as         are managed by the Agency but not available for use
to whether they wish to be represented by a union         in its operations. Agency liabilities include both those
in dealing with their employers and, if so, by which      covered by budgetary resources (funded) and those
union; and (2) to prevent and remedy unlawful             not covered by budgetary resources (unfunded).
acts, called unfair labor practices (ULPs), by either     The investments made for backpay funds are not
employers, unions, or both. The NLRB’s authority is       recognized on the balance sheet of any federal entity.
divided both by law and delegation. The ﬁve-member        A note disclosure is required to provide information
Board (Board) primarily acts as a quasi-judicial body     about its ﬁduciary activities. See Note 1F, Fiduciary
in deciding cases on formal records. The General          Activities, for additional information.
Counsel investigates and prosecutes ULP charges
before administrative law judges, whose decisions may     The Statement of Net Cost presents the gross costs of
be appealed to the Board; and, on behalf of the Board,    programs less earned revenue to arrive at the net cost
conducts secret ballot elections to determine whether     of operations for both programs and for the Agency as
employees wish to be represented by a union.              a whole.

B. Basis of Accounting and
Presentation
These ﬁnancial statements have been prepared to
report the ﬁnancial position, net cost, changes in
net position, and budgetary resources of the NLRB
as required by the Accountability of Tax Dollars
Act of 2002. These ﬁnancial statements have been
prepared from the books and records of the NLRB
in accordance with accounting principles generally
accepted in the United States of America (GAAP),
The Statement of Changes in Net Position reports               without legislation that provides resources and legal
beginning balances, budgetary and other ﬁnancing               authority to do so.
sources, and net cost of operations, to arrive at ending
balances.                                                      The accounting structure of federal agencies is
                                                               designed to reﬂect both accrual and budgetary
The Statement of Budgetary Resources provides                  accounting transactions. Under the accrual method
information about how budgetary resources were                 of accounting, revenues are recognized when earned,
made available, as well as their status at the end of the      and expenses are recognized when a liability is
period. Recognition and measurement of budgetary               incurred, without regard to receipt or payment of cash.
information reported on this statement is based on
budget terminology, deﬁnitions, and guidance in                The budgetary accounting principles, on the other
OMB Circular No. A-11, Preparation, Submission, and            hand, are designed to recognize the obligation of
Execution of the Budget, dated July 26, 2013.                  funds according to legal requirements, which in many
                                                               cases is prior to the occurrence of an accrual based
The Agency is required to be in substantial compliance         transaction. The recognition of budgetary accounting
with all applicable accounting principles and standards        transactions is essential for compliance with legal
established, issued, and implemented by the FASAB,             constraints and controls over the use of federal funds.
which is recognized by the American Institute of
Certiﬁed Public Accountants (AICPA) as the entity              The information as presented on the Statement of Net
to establish GAAP for the federal government. The              Cost is based on the programs below:
Federal Financial Management Integrity Act (FFMIA)
of 1996 requires the Agency to comply substantially            Representation Cases are initiated by the ﬁling of a
with (1) federal ﬁnancial management systems                   petition by an employee, a group of employees, an
requirements, (2) applicable federal accounting                individual or labor organization acting on their behalf,
standards, and (3) the U.S. Government Standard                or in some cases by an employer. The petitioner
General Ledger at the transaction level.                       requests an election to determine whether a union
                                                               represents, or in some cases continues to represent,
The FY 2015 Budget of the United States (also known            a majority of the employees in an appropriate
as the President’s Budget) with actual numbers for FY          bargaining unit and therefore should be certiﬁed as
2013 was not published at the time that these ﬁnancial         the employees’ bargaining representative. The role
statements were issued. The President’s Budget is              of the Agency is to investigate the petition and, if
expected to be published in February 2014 and will be          necessary, conduct a hearing to determine whether
available from the United States Government Printing           the employees constitute an appropriate bargaining
Ofﬁce. There are no differences in the actual amounts          unit under the NLRA. The NLRB must also determine
for FY 2012 that have been reported in the FY 2014             which employees are properly included in the
Budget of the United States and the actual numbers             bargaining unit, conduct the election if an election
that appear in the FY 2012 Statement of Budgetary              is determined to be warranted, hear and decide any
Resources.                                                     post-election objections to the conduct of the election
                                                               and, if the election is determined to have been fairly
OMB ﬁnancial statement reporting guidelines for FY             conducted, to certify its results.
2013 require the presentation of comparative ﬁnancial
statements for all of the principal ﬁnancial statements.       ULP Cases are initiated by individuals or organizations
The NLRB is presenting comparative FY 2013 ﬁnancial            through the ﬁling of a charge with the NLRB. If the
statements for the Balance Sheet, Statement of                 NLRB Regional Ofﬁce believes that a charge has
Net Cost, Statement of Changes in Net Position,                merit, it issues and prosecutes a complaint against
and Statement of Budgetary Resources, and these                the charged party, unless settlement is reached. A
statements have been prepared in accordance with               complaint that is not settled or withdrawn is tried
generally accepted accounting principles.                      before an administrative law judge (ALJ), who issues a
                                                               decision, which may be appealed by any party to the
The ﬁnancial statements should be read with the                Board. The Board acts in such matters as a quasi-
realization that they are for a component of the               judicial body, deciding cases on the basis of the formal
United States Government, a sovereign entity. One              trial record according to the law and the body of case
implication of this is that liabilities cannot be liquidated
law that has been developed by the Board and the             are reconciled with those of Treasury. The fund
federal courts.                                              balances with the Treasury are primarily appropriated
                                                             funds that are available to pay current liabilities and
C. Budgets and Budgetary Accounting                          to ﬁnance authorized purchases. Funds with the
                                                             Treasury represent the NLRB’s right to draw on the
Congress annually adopts a budget appropriation that         Treasury for allowable expenditures. In addition, funds
provides the NLRB with authority to use funds from the       held with the Treasury also include escrow funds that
U.S. Treasury (Treasury) to meet operating expense           are not appropriated but are backpay funds that are
requirements. The NLRB has single year budgetary             the standard Board remedy whenever a violation of
authority and all unobligated amounts at year-end are        the NLRA has resulted in a loss of employment or
expired. At the end of the ﬁfth year, all amounts not        earnings. Cash received and investments made for
expended are canceled. All revenue received from             backpay funds are not recognized on the balance
other sources must be returned to the Treasury.              sheet. A note disclosure is required to provide
                                                             information about its ﬁduciary activities. See Note 1F,
Budgetary accounting measures appropriation and              Fiduciary Activities, for further explanation.
consumption of budget/spending authority or other
budgetary resources and facilitates compliance               See Note 2 for additional information on Fund Balance
with legal constraints and controls over the use of          with Treasury.
federal funds. Under budgetary reporting principles,
budgetary resources are consumed at the time
                                                             F. Fiduciary Activities
of purchase. Assets and liabilities, which do not
consume current budgetary resources, are not                 Fiduciary activities are the collection or receipt,
reported, and only those liabilities for which valid         and the management, protection, accounting,
obligations have been established are considered to          and investment, and disposition by the Federal
consume budgetary resources.                                 Government of cash or other assets in which non-
                                                             Federal individuals or entities have an ownership
Transactions are recorded on an accrual accounting           interest that the Federal Government must uphold.
basis. Under the accrual method, revenues are                Fiduciary cash and other assets are not assets of
recognized when earned and expenses are recognized           the Federal Government. Fiduciary activities are not
when a liability is incurred, without regard to receipt or   recognized on the proprietary ﬁnancial statements, but
payment of cash.                                             are reported on schedules in the notes to the ﬁnancial
                                                             statements. (See SFFAS No. 31, Accounting for
D. Financing Sources                                         Fiduciary Activities).

The NLRB receives funds to support its programs              The ﬁduciary funds collected by NLRB and held in
through annual appropriations. These funds may be            escrow accounts with the Treasury are funds that
used to pay program and administrative expenses              are not appropriated but are backpay funds that are
(primarily salaries and beneﬁts, occupancy, travel, and      the standard Board remedy whenever a violation
contractual service costs).                                  of the NLRA has resulted in a loss of employment
                                                             or earnings. The NLRB invests funds in federal
For accounting purposes, appropriations are                  government securities for backpay that are held in the
recognized as ﬁnancing sources (appropriations used)         escrow account at Treasury. Effective for the period
at the time expenses are accrued. Appropriations             beginning after September 30, 2008, the cash received
expended for general property, plant and equipment           and the investments made for backpay funds will not
are recognized as expenses when the asset                    be recognized on the balance sheet of any federal
is consumed in operations (depreciation and                  entity. A note disclosure is still required to provide
amortization).                                               information about its ﬁduciary activities. See Note 3,
                                                             Fiduciary Activities.
E. Fund Balance with the Treasury
                                                             The federal government securities include Treasury
The NLRB does not maintain cash in commercial                market-based securities issued by the Federal
bank accounts. Cash receipts and disbursements are           Investment Branch of the Bureau of the Public Debt.
processed by the Treasury. The Agency’s records              Market-based securities are Treasury securities that
are not traded on any securities exchange, but mirror
the prices of marketable securities with similar terms.

It is expected that Investments will be held until
maturity; therefore they are valued at cost and
adjusted for amortization of discounts, if applicable.
The discounts are recognized as adjustments to
interest income, utilizing the straight-line method
of amortization for short-term securities (i.e., bills).
Investments, redemptions, and reinvestments are
controlled and processed by the Department of the
Treasury.

There exists a signed Memorandum of Understanding
(MOU) between the NLRB and the Treasury
establishing the policies and procedures that the NLRB
and the Treasury agree to follow for investing monies                           General property, plant and equipment with a cost
in, and redeeming investments held by, the deposit                              of $15,000 or more per unit is capitalized at cost and
fund account in Treasury.                                                       depreciated using the straight-line method over the
                                                                                useful life. Other property items are expensed when
See Note 3 for additional information on Fiduciary                              purchased. Expenditures for repairs and maintenance
Activities.                                                                     are charged to operating expenses as incurred. The
                                                                                useful life for this category is ﬁve to twelve years.
G. Advances                                                                     There are no restrictions on the use or convertibility of
                                                                                general property, plant and equipment.
Advances consist of amounts advanced by the
NLRB for the transit subsidy program. See Note 4 for
                                                                                Internal Use Software. Internal use software (IUS)
additional information on the Advances.
                                                                                includes purchased commercial off-the-shelf software
                                                                                (COTS), contractor-developed software, and software
H. Accounts Receivable, Net of                                                  that was internally developed by Agency employees.
Allowance for Doubtful Accounts                                                 IUS is capitalized at cost if the acquisition cost is
                                                                                $100,000 or more. For COTS software, the capitalized
Accounts Receivable primarily consists of health                                costs include the amount paid to the vendor for the
beneﬁt premiums due the NLRB from Agency                                        software; for contractor-developed software it includes
employees. Accounts receivable are stated net of                                the amount paid to a contractor to design, program,
allowance for doubtful accounts. The allowance is                               install, and implement the software. Capitalized costs
estimated based on an aging of account balances,                                for internally developed software include the full cost
past collection experience, and an analysis of                                  (direct and indirect) incurred during the software
outstanding accounts at year-end.                                               development stage. The estimated useful life is two to
                                                                                ﬁve years for calculating amortization of software using
See Note 5 for additional information on Accounts                               the straight-line method.
Receivable.
                                                                                Internal Use Software in Development. Internal
I. General Property, Plant and                                                  use software in development is software that is being
Equipment                                                                       developed, but not yet put into production. At the
                                                                                time the software is moved into production the costs
General property, plant and equipment consist                                   will be moved into the IUS account described above.
primarily of telephone systems, computer hardware                               The NLRB is currently completing a major software
and software. The Agency has no real property. 4                        1
                                                                                development project called the Next Generation Case
                                                                                Management System (NXGen) that has replaced a
                                                                                number of case tracking systems with one enterprise-
4
                                                                                wide system. NXGen will support the President’s
 Please see subsequent reference to remainder interest in Florida real estate
obtained as a remedy in a ULP case.                                             Management Agenda, such as for e-Gov, E-Filing,
e-FOIA, and public web-based access to NLRB data.             made available through Congressional appropriations
This project has been a multiple year undertaking.            or current earnings of the reporting entity.

See Note 6 for additional information on General              Intragovernmental
Property, Plant and Equipment, Net.                           The U.S. Department of Labor (DOL) paid Federal
                                                              Employees Compensation Act (FECA) beneﬁts on
J. Non-Entity Assets                                          behalf of the NLRB which had not been billed or paid
                                                              by the NLRB as of September 30, 2013 and 2012,
Assets held by the NLRB that are not available to the         respectively.
NLRB for obligation are considered non-entity assets.
                                                              See Notes 8 and 10 for additional information on
See Note 9 for additional information on Non-Entity           intragovernmental liabilities not covered by budgetary
Assets.                                                       resources.

K. Liabilities                                                Federal Employees Workers’ Compensation
                                                              Program.
Liabilities represent the amount of monies or other           The Federal Employees Workers’ Compensation
resources that are likely to be paid by the NLRB as the       Program (FECA) provides income and medical cost
result of a transaction or event that has already occurred.   protection to covered federal civilian employees injured
However, no liability can be paid by the NLRB absent an       on the job, to employees who have incurred work-
appropriation. Liabilities for which an appropriation has     related occupational diseases, and to beneﬁciaries
not been enacted are therefore classiﬁed as Liabilities       of employees whose deaths are attributable to job-
Not Covered by Budgetary Resources and there is no            related injuries or occupational diseases. The FECA
certainty that the appropriation will be enacted. Also,       program is administered by DOL, which pays valid
liabilities of the NLRB arising from other than contracts     claims and subsequently seeks reimbursement from
can be abrogated by the government, acting in its             the NLRB for these paid claims.
sovereign capacity.
                                                              The FECA liability consists of two components. The
L. Liabilities Not Covered by                                 ﬁrst component is based on actual claims paid by
Budgetary Resources                                           DOL but not yet reimbursed by the NLRB. The NLRB
                                                              reimburses DOL for the amount of the actual claims
Liabilities represent the amount of monies or other           as funds are appropriated for this purpose. There is
resources that are likely to be paid by the NLRB as           generally a two- to three-year time period between
the result of a transaction or event that has already         payment by DOL and reimbursement by the NLRB. As
occurred. Liabilities not covered by budgetary                a result, the NLRB recognizes a liability for the actual
resources result from the receipts of goods or services       claims paid by DOL and to be reimbursed by the NLRB.
in the current or prior periods, or the occurrence of
eligible events in the current or prior periods for which     The second component is the estimated liability for future
appropriations, revenues, or other ﬁnancing sources           beneﬁt payments as a result of past events. This liability
of funds necessary to pay the liabilities have not been       includes death, disability, medical, and miscellaneous
                                                              costs. The NLRB determines this component annually,
                                                              as of September 30, using a method that considers
                                                              historical beneﬁt payment patterns.

                                                              The NLRB uses the methodology of reviewing the ages
                                                              of the claimant on a case-by-case basis (because
                                                              of the small number of claimants) to evaluate the
                                                              estimated FECA liability. The determination was made
                                                              to use the life expectancy of claimants of 80 and 84
                                                              years for male and female, respectively.

                                                              See Notes 8 and 10 for additional information on the
                                                              FECA liability.
Accrued Annual Leave                                          O. Annual, Sick, and Other Leave
Accrued annual leave represents the amount of annual
leave earned by the NLRB employees but not yet                Annual and Sick Leave Program.
taken.                                                        Annual leave is accrued as it is earned by employees
                                                              and is included in personnel compensation and beneﬁt
See Notes 8 and 10 for additional information on              costs. Each year, the balance in the accrued annual
Accrued Annual Leave.                                         leave liability account is adjusted to reﬂect current
                                                              pay rates. Annual leave earned but not taken, within
                                                              established limits, is funded from future ﬁnancing
M. Contingencies                                              sources. Sick leave and other types of non-vested
The criteria for recognizing contingencies for claims         leave are expensed as taken.
are:
     1) a past event or exchange transaction has              See Note 10 for additional information on Annual
        occurred as of the date of the statements;            Leave.
    2) a future outﬂow or other sacriﬁce of resources
        is probable; and                                      P. Life Insurance and Retirement Plans
    3) the future outﬂow or sacriﬁce of resources is          Federal Employees Group Life Insurance (FEGLI)
        measurable (reasonably estimated).                    Program.
                                                              Most NLRB employees are entitled to participate in the
The NLRB recognizes material contingent liabilities           FEGLI Program. Participating employees can obtain
in the form of claims, legal action, administrative           “basic life” term life insurance, with the employee
proceedings and suits that have been brought to               paying two-thirds of the cost and the NLRB paying
the attention of legal counsel, some of which will be         one-third. Additional coverage is optional, to be paid
paid by the Treasury Judgment Fund. It is the opinion         fully by the employee. The basic life coverage may
of management and legal counsel that the ultimate             be continued into retirement if certain requirements
resolution of these proceedings, actions and claims,          are met. The Ofﬁce of Personnel Management
will not materially affect the ﬁnancial position or results   (OPM) administers this program and is responsible
of operations.                                                for the reporting of liabilities. For each ﬁscal year,
                                                              OPM calculates the U.S. Government’s service
Contingencies are recorded when losses are probable,          cost for the post-retirement portion of the basic life
and the cost is measurable. When an estimate of               coverage. Because the NLRB’s contributions to
contingent losses includes a range of possible costs,         the basic life coverage are fully allocated by OPM
the most likely cost is reported; where no cost is more       to the pre-retirement portion of coverage, the NLRB
likely than any other, the lowest possible cost in the        has recognized the entire service cost of the post-
range is reported. This item will normally be paid from       retirement portion of basic life coverage as an imputed
appropriated funds.                                           cost and imputed ﬁnancing source.

See Note 16 for additional information on                     Retirement Programs.
Contingencies.                                                The NLRB employees participate in one of two
                                                              retirement programs, either the Civil Service
                                                              Retirement System (CSRS), a deﬁned beneﬁt plan, or
N. Unexpended Appropriations                                  the Federal Employees Retirement System (FERS),
Unexpended appropriations represent the amount                a deﬁned beneﬁt and contribution plan. On January
of the NLRB’s unexpended appropriated spending                1, 1987, FERS went into effect pursuant to Public
authority as of the ﬁscal year-end that is unliquidated       Law 99-335. Most of the NLRB employees hired
or is unobligated and has not lapsed, been rescinded,         after December 31, 1983, are automatically covered
or withdrawn.                                                 by FERS and Social Security. Employees hired prior
                                                              to January 1, 1984, could elect to either join FERS
                                                              and Social Security or remain in CSRS. Employees
                                                              covered by CSRS are not subject to Social Security
                                                              taxes, nor are they entitled to accrue Social Security
                                                              beneﬁts for wages subject to CSRS. The NLRB
contributes a matching contribution equal to 7          SFFAS No. 5, Accounting for Liabilities of the
percent of pay for CSRS employees.                      Federal Government, requires employing agencies to
                                                        recognize the cost of pensions and other retirement
FERS consists of Social Security, a basic annuity       beneﬁts during their employees’ active years of
plan, and the Thrift Savings Plan. The Agency and       service. OPM actuaries determine pension cost
the employee contribute to Social Security and the      factors by calculating the value of pension beneﬁts
basic annuity plan at rates prescribed by law. In       expected to be paid in the future, and provide these
addition, the Agency is required to contribute to the   factors to the agency for current period expense
Thrift Savings Plan a minimum of 1 percent per year     reporting. Information was also provided by OPM
of the basic pay of employees covered by this system    regarding the full cost of health and life insurance
and to match voluntary employee contributions           beneﬁts.
up to 3 percent of the employee’s basic pay, and
one-half of contributions between 3 percent and         In FY 2013, the NLRB, utilizing OPM provided cost
5 percent of basic pay. For FERS employees, the         factors, recognized $7,613,342 of pension expenses,
Agency also contributes the employer’s share of         $8,415,585 of post-retirement health beneﬁts
Medicare. The maximum amount of base pay that           expenses, and $27,146 of post-retirement life insurance
an employee participating in FERS may contribute        expenses, beyond amounts actually paid. The NLRB
is $17,500 in calendar year (CY) 2014 to this plan.     recognized offsetting revenue of $16,056,073 as an
Employees belonging to CSRS may also contribute         imputed ﬁnancing source to the extent that these
up to $17,500 of their salary in CY 2014 and receive    intragovernmental expenses will be paid by OPM.
no matching contribution from the NLRB. For CY          In comparison, in FY 2012, the NLRB, recognized
2014, the regular and catch-up contributions may not    $7,135,213 of pension expenses, $9,782,740 of post-
exceed $22,500. The sum of the employees’ and the       retirement health beneﬁts expenses, and $28,056
NLRB’s contributions are transferred to the Federal     of post-retirement life insurance expenses, beyond
Retirement Thrift Investment Board.                     amounts actually paid. The NLRB recognized offsetting
                                                        revenue of $16,946,009 as an imputed ﬁnancing source
OPM is responsible for reporting assets, accumulated    from OPM.
plan beneﬁts, and unfunded liabilities, if any,
applicable to CSRS participants and FERS employees      See Note 13 for additional information.
government-wide, including the NLRB employees.
The NLRB has recognized an imputed cost and             Q. Operating Leases
imputed ﬁnancing source for the difference between
the estimated service cost and the contributions        The NLRB has no capital lease liability or capital
made by the NLRB and covered CSRS employees.            leases. Operating leases consist of real and
                                                        personal property leases with the General Services
The NLRB does not report on its ﬁnancial statements     Administration (GSA). Regarding NLRB’s building
FERS and CSRS assets, accumulated plan                  lease, the GSA entered into a lease agreement for
beneﬁts, or unfunded liabilities, if any, applicable    the NLRB’s rental of building space. The NLRB pays
to its employees. Reporting such amounts is the         GSA a standard level users charge for the annual
responsibility of OPM. The portion of the current and   rental. The standard level users charge approximates
estimated future outlays for CSRS not paid by the       the commercial rental rates for similar properties.
NLRB is, in accordance with Statement of Federal        The NLRB is not legally a party to any building lease
Financial Accounting Standards (SFFAS) No. 5,           agreements, so it does not record GSA-owned
Accounting for Liabilities of the Federal Government,   properties. The real property leases are for NLRB’s
included in the NLRB’s ﬁnancial statements as an        Headquarters and Regional Ofﬁces and the personal
imputed ﬁnancing source.                                property leases are for GSA cars.

Liabilities for future pension payments and other       See Note 12 for additional information on Operating
future payments for retired employees who               Leases.
participate in the Federal Employees Health Beneﬁts
and the FEGLI programs are reported by OPM rather
than the NLRB.
R. Net Position
Net position is the residual difference between assets
and liabilities and is composed of unexpended
appropriations and cumulative results of operations.
Unexpended appropriations represent the amount
of unobligated and unexpended budget authority.
Unobligated balances are the amount of appropriations
or other authority remaining after deducting the
cumulative obligations from the amount available for
obligation. The cumulative results of operations are the
net result of the NLRB’s operations since inception.

S. Use of Management Estimates
The preparation of the accompanying ﬁnancial
statements in accordance with accounting principles        September 30, 2013 and September 30, 2012 consists
generally accepted in the United States of America         of the following:
requires management to make certain estimates and
assumptions that directly affect the results of reported   Fund Balance with Treasury by Fund
assets, liabilities, revenues, and expenses. Actual
                                                           Type:
results could differ from these estimates.
                                                           The status of the fund balance may be classiﬁed as
T. Tax Status                                              unobligated available, unobligated unavailable, and
                                                           obligated. Unobligated funds, depending on budget
The NLRB, as an independent Board of the Executive         authority, are generally available for new obligations in
Branch, a federal agency, is not subject to federal,       current operations. The unavailable balance includes
state, or local income taxes, and, accordingly, no         amounts appropriated in prior ﬁscal years, which are
provision for income tax is recorded.                      not available to fund new obligations.

U. Comparative Data                                                                                          Total Fund
                                                            (in thousands)   General Funds   Escrow Funds   Balance with
Comparative data for the prior year have been                                                                 Treasury
presented for the principal ﬁnancial statements and           FY 2013
their related notes.                                                          $ 23,108                       $   23,108
                                                            Entity Assets
                                                             Non-Entity
                                                                                                     214            214
V. Subsequent Events                                          Assets
                                                               Total          $ 23,108           $ 214       $ 23,322
Subsequent events and transactions occurring after
September 30, 2013 through the date of the auditor’s          FY 2012
                                                                              $   26,620                     $   26,620
opinion have been evaluated for potential recognition       Entity Assets
or disclosure in the ﬁnancial statements. The date of        Non-Entity
                                                                                                     210            210
the auditors’ opinion also represents the date that the       Assets
ﬁnancial statements were available to be issued.               Total          $ 26,620           $ 210       $ 26,830


Note 2. Fund Balance with                                  The obligated but not yet disbursed balance
Treasury                                                   represents amounts designated for payment of goods
                                                           and services ordered but not yet received or goods
Treasury performs cash management activities for           and services received but for which payment has not
all federal agencies. The net activity represents Fund     yet been made.
Balance with Treasury. The Fund Balance with
Treasury represents the right of the NLRB to draw          Obligated and unobligated balances reported for the
down funds from Treasury for expenses and liabilities.     status of Fund Balance with Treasury do not agree
Fund Balance with Treasury by fund type as of
with obligated and unobligated balances reported on            agree to follow for investing monies in, and redeeming
the Statement of Budgetary Resources because the               investments held by, the deposit fund account in
Fund Balance with Treasury includes items for which            Treasury.
budgetary resources are not recorded, such as deposit
funds and miscellaneous receipts.                              Schedule of Fiduciary Activity
Status of Fund Balance with Treasury as of September           As of September 30, 2013 and 2012
30, 2013 and September 30, 2012 consists of the
following:                                                             (in thousands)              FY 2013       FY 2012

                                                                Fiduciary net assets,
                                                                                               $   5,203)    $   3,356)
                                                                beginning of the year
Fund Balance with Treasury by
                                                                  Fiduciary revenues                5,145        7,572)
Availability:
                                                                  Investment earnings                   0)            0)
          (in thousands)            FY 2013          FY 2012
                                                                  Disbursements to and on
                                                                                                   (7,761)       (5,725)
 Unobligated Balance                                              the behalf of beneﬁciaries

   Available                    $      726       $      801     Increase (Decrease) in ﬁdu-
                                                                                               $   (2,616)   $   1,847)
                                                                ciary net assets
   Unavailable                       4,262            4,978
                                                                Fiduciary net assets, end
                                                                                               $ 2,587)      $ 5,203)
                                                                of year
 Obligated balance not yet
                                    18,120           20,841
 disbursed

 Non-budgetary fund
                                       214              210
 balance with Treasury                                         Fiduciary Net Assets
 Totals                         $ 23,322         $ 26,830      As of September 30, 2013 and 2012

                                                                       (in thousands)              FY 2013       FY 2012

Note 3. Fiduciary Activities                                    Fiduciary Assets

Effective for the period beginning after September 30,            Cash and cash
                                                                                               $    2,587    $    5,203
                                                                  equivalents
2008, the cash received and the investments made for
backpay funds will not be recognized on the balance               Investments                           0             0
sheet of any federal entity. A note disclosure is still
                                                                Fiduciary Liabilities
required to provide information about its ﬁduciary
activities.
                                                                  Less: Liabilities                     0             0

See Note 1F, Fiduciary Activities, for further                  Total Fiduciary
explanation.                                                                                   $   2,587     $   5,203
                                                                net assets


Backpay funds are the standard Board remedy
whenever a violation of the NLRA has resulted in a loss
                                                               Note 4. Advances
of employment or earnings. NLRB holds these funds
                                                               Intragovernmental
in an escrow account with Treasury or invests the
funds that are authorized by the Regional Compliance           Intragovernmental Advances to the United States
Ofﬁcers and other management ofﬁcials in market-               Postal Service (USPS) for September 30, 2013 were
based Treasury securities issued by the Federal                $10,605 and $7,983 for September 30, 2012. The
Investment Branch of the Bureau of Public Debt.                remainder of the balance for FY 2013 and FY 2012
                                                               was with the Department of Transportation for the
There exists a signed MOU between the NLRB and                 transit subsidy.
the U.S. Treasury (Treasury) establishing the policies
and procedures that the NLRB and the Treasury
Note 5. Accounts Receivable,                                             Note 7. Intragovernmental
Net of Allowances for Doubtful                                           Accounts Payable
Accounts                                                                 These accounts payables are with our federal trading
The FY 2013 intragovernmental accounts receivable is                     partners of whom the largest amounts are with the
zero and the FY 2012 amount was also zero:                               General Services Administration (GSA).

          (in thousands)                     FY 2013           FY 2012
                                                                         Note 8. Liabilities Not Covered
 With the public                                                         by Budgetary Resources
   Accounts receivable                         $ 75)             $ 80)   Liabilities not covered by budgetary resources
   Allowance doubtful ac-                                                represent amounts owed in excess of available
                                                (14)               (3)
   counts                                                                congressionally appropriated funds or other amounts.
 Accounts receivable-net                       $ 61              $ 77
                                                                         The custodial liability represents amounts collected
                                                                         from the public for court costs, freedom of information
                                                                         requests and other miscellaneous amounts that must
Note 6. General Property, Plant                                          be transferred to the Treasury.
and Equipment, Net
                                                                         The composition of liabilities not covered by budgetary
General property, plant and equipment consist of that                    resources as of September 30, 2013 and September
property which is used in operations and consumed                        30, 2012, is as follows:
over time. The table below summarizes the cost and
accumulated depreciation for general property, plant
and equipment.                                                                    (in thousands)              FY 2013       FY 2012


Depreciation expense for the years ended September                        Intragovernmental:
30, 2013 and September 30, 2012 was $3,851,380 and                          FECA-Unfunded                 $      720    $      765
$3,921,165 (in dollars), respectively.
                                                                          Total Intragovernmental                720           765
                                        Accumulated
  (in thousands)                                           Net Asset
                       Asset Cost       Depreciation/
                                                            Value
      FY 2013                           Amortization                        Estimated Future – FECA            1,009         1,631

 Equipment                 $    2,713    $     2,495       $      218
                                                                            Accrued Annual Leave              13,645        14,164
 Internal Use
                               23,735         17,063            6,672
 Software
 Internal Use                                                             Total Liabilities not covered
                                                                                                              15,374        16,560
 Software in                    6,796                  0        6,796     by budgetary resources
 Development
                                                                          Total Liabilities covered by
 Totals                    $ 33,244      $ 19,558          $ 13,686                                           13,565        16,957
                                                                          budgetary resources

                                        Accumulated                       Total Liabilities               $ 28,939      $ 33,517
  (in thousands)                                           Net Asset
                       Asset Cost       Depreciation/
                                                            Value
      FY 2012                           Amortization

 Equipment                 $    2,667    $     2,384       $      283
                                                                         Note 9. Non-Entity Assets
 Internal Use
                               21,859         13,323            8,536
 Software                                                                Non-Entity assets, restricted by nature, consist of
 Internal Use                                                            miscellaneous receipt accounts. These amounts
 Software in                    4,709                  –        4,709
 Development
                                                                         represent cash collected and accounts receivable
                                                                         (net of allowance for doubtful accounts). The
 Totals                    $ 29,235      $ 15,707          $ 13,528      miscellaneous receipts represent court costs and
                                                                         freedom of information requests that must be
                                                                         transferred to the Treasury.
The composition of non-entity assets as of September
                                                                         (in thousands)             FY 2013       FY 2012
30, 2013 and September 30, 2012, is as follows:
                                                             Resolve Representation Cases

         (in thousands)           FY 2013        FY 2012       Intragovernmental Costs          $     8,444   $     9,285

 Non-entity assets                                             Costs with the Public                 35,999        38,740
   Fund Balance
                              $       214    $       210     Total Net Cost -
   with Treasury                                                                                $    44,443   $    48,025
                                                             Resolve Representation Cases
 Entity assets                $    39,539    $    40,410


 Total Assets                 $ 39,753       $ 40,620        Resolve Unfair Labor Practices


                                                               Intragovernmental Costs          $ 44,332      $ 46,973
Additionally, NLRB received a remainder interest
in real property valued at approximately $46,000               Costs with the Public                188,996       197,783
as part of a settlement. This asset is not included
                                                             Total Net Cost -
in the table above.                                                                             $ 233,328     $ 244,756
                                                             Resolve Unfair Labor Practices



Note 10. Cumulative Results of                               Other
Operations
                                                               Intragovernmental Costs          $        6    $       11

         (in thousands)           FY 2013        FY 2012       Less: Intragovernmental Earned
                                                                                                         6            11
                                                               Revenue
 FECA paid by DOL             $      (206)   $      (262)
                                                             Total Net Cost - Other             $         0   $         0
 FECA – Unfunded                     (720)          (765)

 Estimated Future FECA             (1,009)        (1,631)
                                                             Net Cost of Operations             $ 277,771     $ 292,781
 Accrued Annual Leave             (13,645)       (14,164)

 General Property, Plant &
                                  13,686)        13,528)
 Equipment, Net                                             Note 12. Operating Leases
 Other                               268)           339)    GSA Real Property. Most of NLRB’s facilities are
                                                            rented from the GSA, which charges rent that is
 Cumulative Results                                         intended to approximate commercial rental rates. The
                              $ (1,626)      $ (2,955)
 of Operations
                                                            terms of NLRB’s occupancy agreements (OA) with
                                                            GSA will vary according to whether the underlying
                                                            assets are owned by GSA or another federal agency or
                                                            rented by GSA from the private sector. The NLRB has
Note 11. Intragovernmental                                  OAs with GSA, which sets forth terms and conditions
Costs and Exchange Revenue                                  for the space the Agency will occupy for an extended
                                                            period of time. Included within the OAs are 120 to 180
For the intragovernmental costs, the buyer and seller       day notiﬁcation requirements for the Agency to release
are both federal entities. The earned revenue is the        space. For purposes of disclosing future operating
reimbursable costs from other federal entities. The         lease payments in the table below, federally-owned
NLRB provided administrative law judges’ services to        leases are included in years FY 2014 through FY 2018.
other federal entities. There is no exchange revenue        The Agency expects to incur relocation costs starting
with the public.                                            in FY 2014 as a consequence of a GSA-mandated
                                                            space initiative.

                                                            Rental expenses for operating leases for the year
                                                            ended September 30, 2013 were $26,151,885 for
Agency lease space and $2,960,531 for Agency
                                                                      (in thousands)         FY 2013    FY 2012
building security. For FY 2012 the operating lease
costs were $25,608,420 and the Agency building             Ofﬁce of
security portion was $2,545,861.                           Personnel Management:

                                                             Pension expenses               $ 7,613    $ 7,135

 Fiscal Year (in thousands)           GSA Real Property      Federal employees
                                                                                              8,416      9,783
                                                             health beneﬁts
 2014                                         $ 26,806       Federal employees group life
                                                                                                 27         28
                                                             insurance program
 2015                                            27,476

 2016                                            28,163    Total Imputed Financing          $ 16,056   $ 16,946

 2017                                            28,867

 2018                                            29,588

 Total Future Lease Costs                     $ 140,900   Note 14. Appropriations
                                                          Received
Note 13. Imputed Financing                                The NLRB received $278,306,006 and $278,833,000
Costs                                                     in warrants for the ﬁscal years ended September 30,
OPM pays pension and other future retirement beneﬁts      2013 and 2012, respectively. The amount shown on
on behalf of federal agencies for federal employees.      the Statement of Budgetary Resources under caption
OPM provides rates for recording the estimated cost       “Permanently not available” for FY 2013 was the
of pension and other future retirement beneﬁts paid       cancelled appropriation for FY 2008 for the amount of
by OPM on behalf of federal agencies. The costs of        $911,385 the rescission amount of $556,612, and the
these beneﬁts are reﬂected as imputed ﬁnancing in the     sequestration cut of $14,000,461 for FY 2013. For FY
consolidated ﬁnancial statements. Expenses of the         2012, the total amount was $605,845 for the cancelled
NLRB paid or to be paid by other federal agencies at      appropriation for FY 2007 and rescission amount was
September 30, 2013 and 2012 consisted of:                 $526,994 for FY 2012.
Note 15. Statement of Budgetary Resources
The Statement of Budgetary Resources provides information about how budgetary resources were made
available as well as their status at the end of the period. It is the only ﬁnancial statement exclusively
derived from the entity’s budgetary general ledger in accordance with budgetary accounting rules that are
incorporated into GAAP for the Federal Government. The total Budgetary Resources of $269,816,869 as of
September 30, 2013 and $283,709,914 as of September 30, 2012, includes new budget authority, unobligated
balances at the beginning of the year, spending authority from offsetting collections, recoveries of prior year
obligations and permanently not available. The NLRB’s unobligated balance available at September 30, 2013
was $725,834 and at September 30, 2012 was $801,263.

Apportionment Categories of Obligations Incurred. NLRB’s obligations incurred as of September 30,
2013 and September 30, 2012 by apportionment Category A and B is shown in the following table. Category
A apportionments distribute budgetary resources by ﬁscal quarters and Category B apportionments typically
distribute budgetary resources by activities, projects, objects or a combination of these categories. Beginning
in FY 2010, OMB agreed that it was not necessary for NLRB to separate its information technology funding
and therefore all obligations incurred were from one funding category.

 (in thousands)                           Apportioned                Not Subject to Apportionment       Total

 FY 2013                         Category A         Category B

 Obligations Incurred:
  Direct                           $ 264,823                     –                                  –   $ 264,823
  Reimbursable                                6                  –                                  –           6

 Total Obligations Incurred         $ 264,829                    –                                  –   $ 264,829

 (in thousands)                           Apportioned                Not Subject to Apportionment       Total

 FY 2012                         Category A         Category B

 Obligations Incurred:
  Direct                           $ 277,920                     –                                  –   $ 277,920
  Reimbursable                                11                 –                                  –           11

 Total Obligations Incurred         $ 277,931                    –                                  –   $ 277,931



Note 16. Contingencies
The NLRB is involved in various lawsuits incidental to its operations. There is one case involving NLRB
employees, that has a reasonable possibility of an unfavorable outcome and costs may be in excess of
$100,000. While the ultimate outcome of these matters is not presently determinable, it is the opinion of
management that the resolution of outstanding claims will not have a materially adverse effect on the ﬁnancial
position of NLRB.
Note 17. Reconciliation of Net Cost of Operations to Budget
For the Month Ended September 30, 2013 and 2012


 (in thousands)                                                                               FY 2013        FY 2012
 Resources Used to Finance Activities
 Current Year Gross Obligations                                                           $   264,829)   $   277,931)


 Budgetary Resources from Offsetting Collections:
   Spending Authority from Offsetting Collections
     Earned
       Collected                                                                                  (37)           (98)
   Recoveries of Prior Year Unpaid Obligations                                                 (1,162)        (1,617)


 Other Financing Resources:
   Imputed Financing Sources                                                                  16,056)        16,946)
   Other                                                                                            0)             0)
 Total Resources Used to Finance Activity                                                 $ 279,686)     $ 293,162)


 Resources Used to Finance Items Not Part of the Net Cost
 of Operations
 Budgetary Obligations and Resources not in the Net Cost
 of Operations:
   Change in Undelivered Orders                                                                  (585)          913)
   Current Year Capitalized Purchases                                                          (4,009)        (4,745)


 Components of the Net Cost of Operations which do not Generate or Use Resources in the
 Reporting Period Revenues without Current Year Budgetary Effect:
   Other Financing Sources Not in the Budget                                                  (16,056)       (16,946)


 Costs without Current Year Budgetary Effect:
   Depreciation and Amortization                                                                3,851)         3,921)
   Disposition of Assets                                                                            0)             0)
   Future Funded Expenses                                                                        (564)          (800)
   Imputed costs                                                                              16,056)        16,946)
   Bad Debt Expense                                                                               14)              8)

   Other Expenses Not Requiring Budgetary Resources                                              (622)          322)

 Net Cost of Operations                                                                   $   277,771)   $   292,781)
